     INTERNAL CONTROLS AND COMPLIANCE WITH LAWS
       AND REGULATIONS FOR THE DOD AGENCY-WIDE
           FINANCIAL STATEMENTS FOR FY 2000


Report No. D-2001-070               February 28, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD
  Home Page at www.dodig.osd.mil or contact the Secondary Reports Distribution
  Unit of the Audit Followup and Technical Support Directorate at (703) 604-8937
  (DSN 664-8937) or fax (703) 604-8932 or.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CFO                   Chief Financial Officer
DFAS                  Defense Finance and Accounting Service
FBWT                  Fund Balance With Treasury
FFMIA                 Federal Financial Management Improvement Act of 1996
FMIP                  Financial Management Improvement Plan
GPRA                  Government Performance and Results Act of 1993
IG                    Inspector General
ODO                   Other Defense Organizations
OMB                   Office of Management and Budget
PP&E                  Property, Plant, and Equipment
SAS                   Statement on Auditing Standards
SFFAC                 Statement of Federal Financial Accounting Concepts
SFFAS                 Statement of Federal Financial Accounting Standards
USD(C)                Under Secretary of Defense (Comptroller)
USGSGL                U.S. Government Standard General Ledger
WCF                   Working Capital Fund
                       Office of the Inspector General, DoD
Report No. D-2001-070                                                February 28, 2001
  Project No. D2001FI-0018.002

             Internal Controls and Compliance With Laws and
                   Regulations for the DoD Agency-Wide
                     Financial Statements for FY 2000

                                 Executive Summary

Introduction. The Chief Financial Officers Act of 1990, as amended by the Federal
Financial Management Act of 1994, requires DoD to prepare annual audited financial
statements. This is the first in a series of reports related to the DoD Agency-Wide
financial statements for FY 2000.

The DoD Agency-Wide financial statements for FY 2000 were compiled from the
financial statements of the DoD reporting entities: the Army, Navy, and Air Force
General Funds; the Army, Navy, and Air Force Working Capital Funds; the Military
Retirement Fund; the U.S. Army Corps of Engineers, Civil Works Program; and
financial data for the Other Defense Organizations-General Funds and Working Capital
Funds. In FY 2000, the DoD Components reported total assets of $616.7 billion, total
liabilities of $1.0 trillion, total net costs of operations of $347.5 billion, and total
budgetary resources of $656.1 billion.

Audit Objectives. Our overall objective was to determine whether the DoD Agency-
Wide financial statements for FY 2000 were prepared in accordance with Office of
Management and Budget Bulletin No. 97-01, “Form and Content of Agency Financial
Statements,” October 16, 1996, as amended, and generally accepted accounting
principles. We also evaluated internal controls and compliance with laws and
regulations.

Disclaimer of Opinion. DoD could not provide sufficient or reliable information for
us to verify amounts on the FY 2000 DoD Agency-Wide Financial Statements. We
identified deficiencies in internal controls and accounting systems related to General
Property, Plant, and Equipment; Inventory; Environmental Liabilities; Military
Retirement Health Benefits Liability; and material lines within the Statement of
Budgetary Resources. The DoD processed at least $4.5 trillion of department-level
accounting entries to the DoD Components financial data used to prepare departmental
reports and the DoD Agency-Wide financial statements for FY 2000. Also,
$1.2 trillion in department-level accounting entries to financial data, used to prepare
DoD Component financial statements, were unsupported because of documentation
problems or improper because the entries were illogical or did not follow generally
accepted accounting principles.
The financial data reported on the FY 2000 financial statements for Army, Navy, and
Air Force General Funds; the Army, Navy, and Air Force Working Capital Funds; and
the U.S. Army Corps of Engineers, Civil Works Program, were unauditable and
comprise a significant portion of the financial data reported on the FY 2000 DoD
Agency-Wide Financial Statements. Because internal control weaknesses, compilation
problems, and financial management system deficiencies continued to exist, we were
unable to perform adequate audit tests of the financial statements. As a result, we do
not express an opinion on the FY 2000 DoD Agency-Wide Financial Statements.

Review of Internal Controls. The objective of our audit was not to provide assurance
on internal controls. Consequently, we did not express an opinion on internal controls.
Our review of internal controls included applicable tests of the internal controls to
determine whether the controls were effective and working as designed. We concluded
that DoD internal controls were not adequate to ensure that resources were properly
managed and accounted for, that DoD complied with applicable laws and regulations,
and that the financial statements were free of material misstatements. The material
weaknesses and reportable conditions we identified were also reported in the
management representation letter for the FY 2000 DoD Agency-Wide Financial
Statements, the DoD Components’ Annual Statements of Assurance, and the DoD
Financial Management Improvement Plan.

Review of Compliance With Laws and Regulations. Our objective was to assess
compliance with laws and regulations related to the DoD Agency-Wide financial
statements for FY 2000 and not to express an opinion. Therefore, we did not express
an opinion on DoD compliance with laws and regulations. However, DoD did not fully
comply with laws and regulations that had a direct and material affect on its ability to
determine the amounts reported on the financial statements. We identified
noncompliance issues related to the Federal Financial Management Improvement Act of
1996; Statements of Federal Financial Accounting Standards; the Chief Financial
Officers Act of 1990; section 3512, title 31, United States Code (formerly the Federal
Managers’ Financial Integrity Act of 1982); laws governing the claims of the United
States government; and the Government Performance and Results Act of 1993.

Management Comments. Although no comments were required, the Deputy Chief
Financial Officer, provided general comments on the report. He stated that the
Department was improving its financial operations, but did not have sufficient time to
review and determine the validity of individual assertions in the report. The Deputy
Chief Financial Officer also stated that they were not provided detail on the accounting
entries considered unsupported and that the accounting entries are not a normal part of
the Department’s day-to-day accounting processes.

Audit Response. The Department did not provide financial statements for audit until
about 3 months after fiscal year end. Also, the published FY 2000 DoD Agency-Wide
Financial Statements differed significantly from the financial statements originally
presented for audit. In order to comply with Office of Management and Budget reporting
timeframes, we were only able to provide limited time for comments on this report.
Although many accounting entries are made to prepare the financial statements, other
accounting entries correct errors caused by improper system interfaces, day-to-day
accounting problems, and long-standing deficiencies. Although these problems persist,
we agree that DoD has made progress in reducing the number and value of accounting
entries. We met with key DoD accounting officials throughout the year and provided
details of the problems with the unsupported accounting entries. Specific matters
summarized in this report will be addressed in subsequent reports by the IG, DoD and the
Service Audit Agencies.

                                           ii
Table of Contents

Executive Summary                                                        i


Introduction
     Background                                                          1
     Objectives                                                          2

Review of Internal Controls
     Overview of Material Weaknesses                                     3
     Internal Control Components                                         3
     Assessment of Fraud Risk                                           22
     Conclusion                                                         24

Review of Compliance With Laws and Regulations
     Reportable Noncompliances                                          25
     Conclusion                                                         31

Appendixes
     A. Audit Process
          Scope                                                         32
          Methodology                                                   34
          Prior Coverage                                                35
     B. Laws and Regulations Reviewed                                   36
     C. Status of Implementation Strategies                             38
     D. Noncompliant Critical Finance, Accounting, and Feeder Systems   39
     E. Report Distribution                                             42

Management Comments
     Under Secretary of Defense (Comptroller)                           45

Exhibits
     1. Management Representation Letter
     2. Legal Representation Letter
     3. Auditor Opinion
Background
    Reporting Requirements. Public Law 101-576, the Chief Financial Officers
    Act of 1990, November 15, 1990, as amended by Public Law 103-356, the
    Federal Financial Management Act of 1994, October 13, 1994, requires DoD
    to prepare annual audited financial statements. Office of Management and
    Budget (OMB) Bulletin No. 01-02, “Audit Requirements for Federal Financial
    Statements,” dated October 16, 2000, establishes the minimum requirements
    for audits of Federal financial statements. This is the first in a series of
    reports related to the DoD Agency-Wide financial statements for FY 2000.

    Accounting Functions and Responsibilities. The Under Secretary of
    Defense (Comptroller) (USD[C]), as the Chief Financial Officer (CFO), is
    responsible for overseeing all financial management activities related to the
    programs and operations of DoD. The Defense Finance and Accounting
    Service (DFAS) performs accounting functions and prepares financial
    statements for DoD. DFAS operates under the control and direction of the
    USD(C). DFAS is responsible for entering information from DoD entities
    into finance and accounting systems, operating and maintaining the finance
    and accounting systems, and ensuring the continued integrity of the
    information entered. The DoD reporting entities are responsible for
    providing accurate financial information to DFAS through feeder systems and
    other processes.

    Internal Control Responsibilities. As the CFO, the USD(C) oversees all
    financial management activities for DoD programs and operations, including
    the accounting functions of DFAS. The Military Departments, Defense
    agencies, and DoD field activities are responsible for managing their
    operations. Establishing and maintaining internal controls appropriate to the
    entity is an important management responsibility. The objectives of internal
    controls are to provide management with reasonable, but not absolute,
    assurance that:

           •   transactions are properly recorded and accounted for to permit the
               preparation of reliable financial statements and to maintain
               accountability over assets;

           •   funds, property, and other assets are safeguarded against waste, loss,
               unauthorized use, and misappropriation;

           •   transactions, including those related to obligations and costs, are
               executed in compliance with laws and regulations that could have a
               direct and material effect on the financial statements, and with any
               laws and regulations that OMB, DoD, or the Inspector General (IG),
               DoD, have identified as being significant and for which compliance
               can be objectively measured and evaluated; and

           •   data that support reported performance measures are properly
               recorded and accounted for to permit preparation of reliable and
               complete performance information.




                                        1
     Compliance Responsibilities. The CFO is also responsible for compliance with
     laws and regulations applicable to the DoD Agency-Wide financial statements.
     The Military Departments, Defense agencies, and DoD field activities are
     responsible for compliance with laws and regulations applicable to their
     organizations. Compliance with laws and regulations is an important
     management responsibility and is essential for proper financial reporting.

     Accounting Policy. The DoD Agency-Wide financial statements for FY 2000
     were to be prepared in accordance with OMB Bulletin No. 97-01, “Form and
     Content of Agency Financial Statements,” October 16, 1996, as amended
     September 11, 2000. Footnote 1 to the financial statements discusses the
     significant accounting policies followed in preparing the financial statements.

     Scope of DoD Operations. In employment and discretionary spending
     authority, DoD is the largest Government agency. In FY 2000, DoD employed
     about 2.1 million active-duty Service members and civilian personnel and about
     0.9 million reservists. In FY 2000, the DoD Components reported total assets
     of $616.7 billion, total liabilities of $1.0 trillion, total net costs of operations of
     $347.5 billion, and total budgetary resources of $656.1 billion.

     Disclaimer of Opinion. DoD could not provide sufficient or reliable
     information for us to verify amounts on the FY 2000 DoD Agency-Wide
     Financial Statements. We identified deficiencies in internal controls and
     accounting systems related to General Property, Plant, and Equipment;
     Inventory; Environmental Liabilities; Military Retirement Health Benefits
     Liability; and material lines within the Statement of Budgetary Resources. Also,
     $1.2 trillion in department-level accounting entries to financial data, used to
     prepare DoD Component financial statements, were unsupported because of
     documentation problems or improper because the entries were illogical or did
     not follow generally accepted accounting principles.

     The financial data reported on the FY 2000 financial statements for Army,
     Navy, and Air Force General Funds; the Army, Navy, and Air Force Working
     Capital Funds; and the U.S. Army Corps of Engineers, Civil Works Program,
     were unauditable and comprise a significant portion of the financial data
     reported on the DoD Agency-Wide financial statements for FY 2000.

     Because internal control weaknesses, compilation problems, and financial
     management system deficiencies continued to exist, we were not able to perform
     adequate audit tests of the various line item amounts reported on the financial
     statements. As a result, we do not express an opinion on the FY 2000 DoD
     Agency-Wide Financial Statements. Our disclaimer of opinion is Exhibit 3.

Objectives
     Our overall objective was to determine whether the DoD Agency-Wide financial
     statements for FY 2000 were prepared in accordance with Office of
     Management and Budget Bulletin No. 97-01, “Form and Content of Agency
     Financial Statements,” October 16, 1996, as amended, and generally accepted
     accounting principles. We also evaluated internal controls and compliance with
     laws and regulations. See Appendix A for a complete discussion of the scope,
     methodology, and prior coverage.


                                            2
Review of Internal Controls
Overview of Material Weaknesses
    Reportable conditions are matters coming to our attention relating to
    significant deficiencies in the design or operation of the internal controls that,
    in our judgment, could adversely affect the organization’s ability to
    effectively control and manage its resources and to ensure reliable and
    accurate financial information for use in managing and evaluating operational
    performance. A material weakness is a reportable condition in which the
    design or operation of the internal controls does not reduce to a relatively low
    level the risk that errors or irregularities could occur. Such errors or
    irregularities would be in amounts that would be material to the statements
    being audited, and would not be detected in a timely manner by employees in
    the normal course of performing their functions.

    The objective of our audit was not to provide assurance on internal controls.
    Consequently, we did not express an opinion on internal controls. We
    performed applicable tests of the internal controls to determine whether the
    controls were effective and working as designed. DoD internal controls were
    not adequate to ensure that resources were properly managed and accounted
    for, that DoD complied with applicable laws and regulations, and that the
    financial statements were free from material misstatements. DoD internal
    controls did not ensure that accounting entries to financial data were fully
    supported and that assets and liabilities were properly accounted for and
    valued. The material weaknesses and reportable conditions we identified were
    also reported in the management representation letter for the FY 2000 DoD
    Agency-Wide Financial Statements (Exhibit 1), the DoD Components’ Annual
    Statements of Assurance for FY 2000, and the DoD Financial Management
    Improvement Plan (FMIP).

    Statement on Auditing Standards (SAS) No. 82, “Consideration of Fraud in a
    Financial Statement Audit,” February 1997, requires us to specifically assess
    the risk of material misstatement of the financial statements because of fraud
    and to consider that assessment in designing audit procedures to be performed.
    We included an assessment of fraud risk in our review of internal controls.

Internal Control Components
    SAS No. 78, “Consideration of Internal Controls in a Financial
    Statement Audit; An Amendment to SAS No. 55,” December 1995,
    defines internal controls as a process performed by an entity’s board of
    directors, management, or other personnel, designed to provide
    reasonable assurance regarding the achievement of objectives in the
    following categories: reliability of financial reporting, effectiveness and
    efficiency of operations, and compliance with applicable laws and
    regulations.




                                          3
     SAS No. 78 states that internal controls consist of five interrelated
     components:
            •   the control environment,
            •   risk assessment,
            •   control activities,
            •   information and communication, and
            •   monitoring.


Control Environment
     The control environment includes factors that set the tone of an organization,
     influencing the control consciousness of its employees. The control
     environment includes several organizational factors, such as management’s
     philosophy and commitment to competence. The ability of DoD to prepare
     auditable financial statements would be improved if:
            •   DoD continued to revise system improvement plans;
            •   DoD provided adequate guidance to the DoD Components for
                preparing financial statements; and
            •   the CFO provided auditable and timely financial statements.

     We identified similar problems with DoD financial reporting guidance and
     financial statements for FYs 1997, 1998, and 1999. A discussion of these issues
     was included in IG, DoD, Reports on Internal Controls and Compliance with
     Laws and Regulations for the DoD Agency-Wide financial statements for
     FYs 1997, 1998, and 1999.

     Plans to Improve Financial Management. As in past years, the overarching
     deficiency preventing favorable audit opinions is the lack of adequate financial
     management and feeder systems for compiling accurate and reliable financial data.
     DoD has implemented three major efforts to improve financial management, the
     Financial Management Improvement Plan, the Critical Financial and Feeder
     Systems Compliance Process, and the DoD Implementation Strategies.

     DoD Financial Management Improvement Plan. The FMIP was first
     published in 1998 and is a strategic framework that includes the Department
     financial management concept of operations that describes the manner in which
     the Department intends to carry out financial management operations in the
     future. Progress and improvements have been made in the financial
     management operations over the past several years; however, much more work
     remains to be accomplished before the Department can claim a state-of-the-art
     integrated financial management system. The Department continues to refine
     the FMIP as evident by the modifications made to the critical financial
     management systems inventory. In FY 2000, 25 systems were deleted from the
     critical financial management system inventory, while 24 systems were added,
     resulting in a net effect of one less than FY 1999 for a total of 167 systems.


                                           4
Although the FMIP continues to evolve with each issuance, areas remain where
modifications could be made to ensure that the FMIP is an accurate and useful
tool for enhancing DoD financial management operations and systems. The
FY 2000 FMIP still lacks all information required by the Federal Financial
Management Improvement Act of 1996 (FFMIA) regarding the funds and
timeframes required to correct all system deficiencies. DoD needs to continue
identifying all critical financial management systems and providing the full
remedies, resources, and intermediate target dates as the DoD Components
begin implementation of the Critical Financial and Feeder Systems Compliance
Process.

DoD evaluated 53 of the 68 systems identified as long-term critical finance,
accounting, and feeder systems. The USD(C) tasked the DoD Components with
completing the system evaluations by March 31, 2000, however, those
evaluations were not completed. As a result, DoD did not complete the first
step in preparing plans to correct deficiencies in financial management systems
for 15 critical systems. DoD cannot provide reasonable estimates of the funding
or milestones necessary to achieve favorable audit opinions without a complete
inventory of systems and specific plans to correct system deficiencies.

Additionally, DoD Components did not conduct proper or complete evaluations
of critical financial management systems reported as compliant in the FY 2000
FMIP. DoD did not evaluate financial management systems against FFMIA
requirements or did not maintain adequate documentation to support compliance
evaluations before reporting systems as FFMIA compliant. As a result, at least
11 of the 19 systems reported as FFMIA compliant, were not FFMIA compliant
or the compliance status was not supported.

DoD Critical Financial and Feeder Systems Compliance Process. As approved
by the Defense Management Council, the USD(C) developed a financial and
feeder systems compliance process dated January 5, 2001, to oversee and monitor
the DoD Components’ efforts to develop and modify critical finance, accounting,
and feeder systems to comply with applicable requirements. The process is
patterned after the successful DoD Y2K conversion process and consists of five
phases with defined exit criteria. The process includes the designation of a
governing body to provide oversight and guidance to the DoD Components on
participation and the application of adequate resources.

The goal of the financial and feeder systems compliance process is to ensure that
each financial and feeder system complies with Federal financial management
requirements. To ensure success of the compliance process, it should include
the following:

       •   accountability measures,

       •   DoD Component implementation plans,

       •   non-critical systems feeding data to critical systems,

       •   flow of data to each financial statement line item, and

       •   specific information included in tracking the status of each system.



                                      5
DoD Implementation Strategies. As an interim solution until compliant financial
management and feeder systems are in place, DoD was attempting to improve
other aspects of its financial management through the development of DoD
Implementation Strategies. The implementation strategies are a step towards
achieving a favorable audit opinion. The DoD has developed 13 implementation
strategies that are in various stages of completion. Three of the implementation
strategies have been rebaselined. Five implementation strategies are pending, and
five have the implementation in progress. An additional implementation strategy,
recommended by the Inspector General, DoD, and subsequently agreed to by the
USD(C), is to eliminate unsupported department-level accounting entries and to
minimize department-level accounting entries of the data used to compile the DoD
Component and DoD Agency-Wide financial statements. This additional strategy
has not yet been developed. See Appendix C for the status of the implementation
strategies.

DoD Guidance. DoD guidance on intragovernmental eliminations is not in
agreement with generally accepted accounting principles. DoD reporting
entities are required to report intragovernmental eliminations in the FY 2000
annual financial statements to offset the effect of transactions between:

       •   a DoD reporting entity and other Federal agencies,

       •   DoD reporting entities, and

       •   organizations within a DoD reporting entity.

The DoD guidance did not require adequate support for intragovernmental
eliminations. The guidance provided instructions to adjust buyer-side data to
agree with seller-side data, without conducting proper research to reconcile the
difference. For FY 2000, DoD processed $135.5 billion in unsupported
department-level accounting entries to adjust intragovernmental accounts to ensure
sufficient balances to cover the amounts needed for elimination. As a result, DoD
eliminated $89.5 billion in expenses, $89.5 billion in revenue, $5.9 billion in
accounts payables and other liabilities, and $5.9 billion in accounts receivable and
other assets in the financial statements that could not be verified.

For FY 2000 reporting, DoD used information from the DoD entity making sales
or providing services (“seller-side”) to another DoD entity, or to another Federal
agency, that is the recipient and purchaser of those goods or services (“buyer-
side”) as the basis for reporting intragovernmental eliminations. DoD presumed
that the amounts of intragovernmental accounts receivable, revenue, and advances
from others (unearned revenue) reported by the seller were more accurate, and
that the corresponding amounts reported by the buyer for intragovernmental
accounts payable, expenses, advances, and assets must be adjusted to match the
seller records. For example, DFAS processed department-level accounting entries
of $14.1 billion to the Army Working Capital Fund, adjusting the amounts in the
Army Working Capital Fund to the seller-side data without any research or
reconciliation.

DoD accounting systems do not capture trading partner data (data on
transactions between DoD and other Federal entities) at the transaction level in a
manner that facilitates trading partner aggregations. Therefore, DoD was
unable to reconcile intragovernmental revenue balances with its trading partners.


                                    6
     As a result, the DoD Agency-Wide financial statements were at further risk for
     material misstatements, and the intragovernmental line items were unreliable.
     The inability of DoD to properly account for and disclose intragovernmental
     transactions and report trader partner eliminations is a major impediment in
     obtaining a favorable audit opinion on its financial statements.

     Guidance Issued by DFAS. “Journal Voucher Guidance,” August 2, 2000,
     issued by DFAS was not in agreement with generally accepted accounting
     principles. This guidance established procedures on the use of journal vouchers
     within the DoD and is retroactive to the beginning of FY 2000. The procedure
     cited for making accounting entries to intergovernmental accounts does not
     follow generally accepted accounting principles; consequently, the procedure for
     supporting these accounting entries is inadequate. In addition, DFAS Centers
     processed 5,654 unsupported or improper department-level accounting entries,
     valued at $1.2 trillion. One of the reasons that the department-level accounting
     entries were unsupported is that they were made to force general ledger data to
     agree with data from other sources without adequate research and reconciliation.


Risk Assessment
     For financial reporting purposes, an entity’s risk assessment is its identification,
     analysis, and management of risks relevant to the preparation of financial
     statements following generally accepted accounting principles. DFAS
     Indianapolis has used different locally developed applications to compile the
     Army General Fund financial statements every year since 1997. This constant
     change has prevented the development of effective controls over the compilation
     process.

     In addition to the locally developed software, DFAS Indianapolis also used new
     DFAS-wide applications in FY 1999 (Chief Financial Officer Financial System)
     and FY 2000 (Defense Department Reporting System). These additional
     applications added several layers of complexity to the compilation process but
     have not resulted in either stability in the compilation process or improved
     internal controls. The changes and increased complexity in the compilation
     process have increased the risk of material misstatements in DoD financial
     statements. Control Activities and Information and Communication Control
     activities are the various policies and procedures that help ensure that necessary
     actions are taken to address risks to achieve the entity’s objectives. Information
     and communication activities include the accounting system, consisting of the
     methods and records established to record, process, summarize, and report
     entity transactions and to maintain accountability of the related assets and
     liabilities. To be effective, the information and communication system must
     identify and record all valid transactions; describe transactions on a timely basis;
     properly measure the value of transactions; record transactions in the proper
     time period; properly present and disclose transactions; and communicate
     responsibilities to employees.

     Procedural Problems. Procedural problems were primarily related to
     accounting and reporting procedures and the application of accounting and
     reporting standards. The FMIP acknowledged procedural problems that existed
     in DoD.



                                          7
The published DoD Agency-Wide financial statements for FY 2000 differed
materially from the financial statements presented for audit. Table 1 shows the
magnitude of these differences for selected statement lines.

                Table 1. Comparison of Published Financial with
                   Financial Statements Presented for Audit
                                  (in billions)
                                       Amount for     Published                 Percent
             Line Item                                             Difference
                                        Audit*        Amount**                  Change
 Balance Sheet
   Inventory and Other Related
   Property                                 $154.7       $139.1       $(15.6)      -10.12
  Environmental Liabilities                    52.2         63.2         11.0       21.11
   Cumulative Results of Operations         (514.6)      (541.8)       (27.2)        5.29
 Statement of Net Cost
  Program Cost with the Public               354.1        365.1         11.0        3.11
 Statement of Changes in Net
 Position
  Net Cost of Operations                     336.6        347.5          10.9        3.24
  Prior Period Adjustments                    56.5         41.3        (15.2)      -26.97
 Statement of Financing
   Financing Sources that Fund Costs        (208.6)       (16.3)       192.3       -92.18
   of Prior Periods

*As of December 22, 2000
**As of February 15, 2001

The DoD should change the financial statements presented for audit only to the
extent necessary to record auditor-recommended adjustments. Material changes
unrelated to the results of the audit make the financial data contained in the
published statements unauditable by any practical means.

Department-Level Accounting Entries. Despite the large volume of
department-level accounting entries made to the DoD Component financial data
during FY 1999 and FY 2000, some progress had been made. The department-
level accounting entries processed to the DoD Components financial data (used
to prepare departmental reports and the DoD Agency-wide financial statements
for FY 2000) decreased by $3.1 trillion, from at least $7.6 trillion in FY 1999
to at least $4.5 trillion. The department-level accounting entries supported by
proper research, reconciliation, and adequate audit trails increased by
$200 billion from $2.6 trillion in FY 1999 to $2.8 trillion in FY 2000. The
$1.2 trillion of unsupported and improper department-level accounting entries
for FY 2000 decreased $1.1 trillion from $2.3 trillion in FY 1999. The major
reason for the decrease in unsupported and improper entries was that in
FY 1999, DFAS Cleveland made one large entry of $800 billion that did not
follow accounting principles. DFAS Cleveland did not make any accounting
entries of this magnitude for FY 2000. We did not review $1.8 trillion in
accounting entries for FY 1999 and $0.5 trillion in FY 2000.

Although we determined that proper reconciliations were performed and
adequate audit trails existed to support $2.8 trillion of the accounting entries, it
is important to note that many of these were corrections of errors or resulted


                                        8
from data provided to the DFAS from outside sources that could not be verified
through audit. The following table identifies the results of our review of
accounting entries made to the DoD Component financial data for FY 2000.

              Table 2. Department-Level Accounting Entries for FY 2000
                                    (in billions)
                                                                          Not
     Department-Level      Supported    Unsupported      Improper      Reviewed         Total
     Accounting Entries     (entries)    (entries)        (entries)     (entries)     (entries)
                           $ 103.4        $ 360.4           $ 1.1      $     0        $ 464.9
 Army General Fund          (219)          (236)             (4)            (0)         (459)
 Army Working                 168.2           36.2            7.8           0            212.2
  Capital Fund               (174)           (72)            (5)           (0)          (251)
                              453.2           81.7           79.9         397.4        1,012.2
 Navy General Fund         (1,103)           (28)        (3,342)       (9,340)       (13,813)
 Navy Working                 885.9           48.2           10.7           2.5          947.3
  Capital Fund               (432)          (165)           (61)         (316)          (974)
 Air Force General             85.6          317.4            3.0           0            406.0
  Fund                       (507)        (1,067)           (43)           (0)        (1,617)
 Air Force Working             68.7           32.0            4.3           0            105.0
  Capital Fund               (388)          (152)            (8)           (0)          (548)
                              325.6          228.0            0.4          61.6          615.6
 ODO* General Fund            (80)          (377)           (23)         (758)        (1,238)
 ODO Working                   15.2           10.0            0             0             25.2
  Capital Fund               (203)           (66)            (0)           (0)**        (269)**
 U.S. Army, Corps              15.0               0.3          0           15.6           30.9
  of Engineers               (117)               (5)          (0)      (1,906)        (2,028)
 Military Retirement          687.6               0            0             0           687.6
  Fund                         (1)               (0)          (0)           (0)           (1)
                           $2,808.4       $1,114.2         $107.2       $477.1        $4,506.9
      Total                (3,224)        (2,168)        (3,486)      (12,320)       (21,198)

 *
     Other Defense Organizations
 **
     The scope of accounting entries reviewed for the ODO Working Capital Fund (WCF) was
      limited to entries processed by DFAS Indianapolis ($2.5 billion) and DFAS Denver
      ($22.7 billion). Therefore, the total amount of accounting entries to the ODO WCF financial
      statements is unknown.

DoD processed at least $4.5 trillion of department-level accounting entries to
the DoD Components financial data used to prepare departmental reports and
the DoD Agency-wide financial statements for FY 2000. The department-level
accounting entries were processed to force financial data to agree with various
data sources, to correct errors, and to add new data. Of the $4.5 trillion,
proper research, reconciliations, and adequate audit trails supported
$2.8 trillion of the department-level accounting entries for FY 2000. However,
accounting entries of $1.1 trillion were not supported by adequate audit trails
or by sufficient evidence to determine their validity. In addition, department-
level accounting entries of $107 billion were improper because the entries were
illogical or did not follow accounting principles. We did not review the
remaining $477 billion for FY 2000 and, therefore, we did not determine
whether they were adequately supported. The magnitude of accounting entries


                                             9
required to compile the DoD financial statements highlights the significant
problems DoD has in producing accurate and reliable financial statements with
existing systems and processes.

        Error Corrections. Error corrections of $588 billion to the DoD
Components’ financial data affected the amounts reported on the DoD
Agency-Wide financial statements for FY 2000. Error corrections decreased in
FY 2000 by $14.7 billion from $602.7 billion in FY 1999. Although support
existed for these adjustments, DoD can improve the efficiency of the financial
statement compilation process and help ensure the integrity of the financial data
by improving the accuracy of accounting entries and minimizing the need for
error corrections.

        Data From Sources Outside DFAS. Data for some reported amounts
on the balance sheet were obtained from sources outside of DFAS. Although
DFAS had proper support for these accounting entries, the amounts reported
could not be verified through audit. The $63.2 billion reported for
Environmental Liabilities could not be verified through audit tests because of
insufficient controls and inadequate audit trails used by DoD to develop the
estimate. In addition, the Assistant Secretary of Defense (Health Affairs)
acknowledged that the $192.4 billion reported for the Military Retirement
Health Benefits Liability was unreliable.

        As a result of these accounting entries, the FY 2000 DoD Agency-Wide
Financial Statements were subject to a high risk of material misstatement. The
lack of research, reconciliation, and audit trails impaired the auditors’ ability to
validate the accounting entries. The accounting entries indicate potential
problems in DoD financial management systems and processes. Until compliant
financial management systems are in place, DoD could improve the accuracy of
its financial data by following accounting principles and including the proper
support for any accounting entries made to the accounting records. Additional
details on these accounting entries and how they compare to the data for
department-level accounting entries for FY 1999 will be provided in a separate
report.

        Fund Balance With Treasury (FBWT). The DoD Components and
DFAS did not resolve financial and accounting disparities of $28.4 billion, and
the disparities continue to affect the accuracy of the FBWT account.
Therefore, we were unable to assess the reliability of the $177.5 billion
reported for FBWT on the DoD Agency-Wide financial statements for
FY 2000.

The $28.4 billion in disparities (absolute value) include differences
($3.5 billion), unreconciled suspense account balances ($10.2 billion), and
disbursement disparities ($14.7 billion). As of September 30, 2000, the
U.S. Treasury Financial Management Service reported about $3.5 billion
(absolute value) of unreconciled differences to DoD, including differences
for deposits ($1.3 billion), interagency transfers ($0.3 billion), and checks
issued ($1.9 billion). Furthermore, DFAS reported $10.2 billion of
unreconciled suspense account balances for interfund ($1 billion),
interagency transfers ($0.8 billion), and differences between net
disbursement amounts reported on disbursing stations Statements of
Accountability and Statements of Transactions ($8.4 billion). In addition,


                                     10
DoD accounting stations reported $14.7 billion of disbursement disparities
including in-transit disbursements ($11.8 billion), unmatched disbursements
($1.7 billion), and negative unliquidated obligations ($1.2 billion).

               Army General Fund. Unreconciled differences existed between
the official Army report on net disbursements and supporting records.
Unreconciled suspense account; expenditure reporting; check issue; deposit; and
Online Payment and Collection differences not due to report timing totaled about
$848 million at the end of FY 2000. The unreconciled differences represent a
material uncertainty in regard to the Fund Balance With Treasury line item
balance of $34.5 billion for the Army General Fund.

              Army Working Capital Fund. The DFAS Indianapolis FY 2000
Annual Assurance Statement reported internal control weaknesses that affect
FBWT for the Army WCF. One internal weakness involved in-transit
disbursements, unmatched disbursements, and negative unliquidated obligations.
Another internal control weakness involved suspense accounts that require
extensive reconciliation to ensure that the accounts are properly used, supported
by adequate documentation, timely cleared, and in agreement with U.S. Treasury
balances.

               Navy Working Capital Fund. DFAS did not perform cash
reconciliations between disbursing system records and activity general ledgers
and did not retain supporting documentation. Consequently, DFAS managers
did not have adequate assurance that Navy WCF account balances for the
FBWT were supportable, reliable, and accurate.

               Air Force General Fund. DFAS internal controls did not ensure
proper matching of disbursements with related obligations, resulting in
$60.8 million of negative unliquidated obligations in the accounting systems for
the Air Force General Fund. Through electronic commerce initiatives and
prevalidation of disbursements, DFAS and Air Force officials continued work in
FY 2000 to resolve this long-standing internal control issue.

              Air Force Working Capital Fund. DFAS Columbus did not
provide supporting documentation for $22.6 million of the $65 million
disbursement transactions tested. In addition, DFAS Denver made $4.2 billion
in improper and unsupported monthly adjustments and $31.9 billion in improper
and unsupported year-end adjustments to Air Force WCF accounting records.

                Other Defense Organizations-General Funds. Because
accounting offices supporting the Other Defense Organizations do not submit
trial balances for all of the Other Defense Organizations entities and sub-
entities, DFAS used data from the Reports on Budget Execution to manually
create 53 trial balances for 16 entities and sub-entities. The manually created
trial balances were not complete because Reports on Budget Execution do not
contain financial data for the entire scope of an entity’s operations such as
accrued annual leave expenses; property, plant, and equipment; and related
depreciation. The combined FBWT for the manually created trial balances was
$445 million. Additionally, amounts reported for accounts payable and accounts
receivable are not reported in separate intragovernmental and public categories
as required for the financial statements.



                                   11
        Problem Disbursements. DoD had difficulties with its complex and
inefficient payment processes and systems. DFAS has reported progress in
reducing in-transit disbursements and problem disbursements. According to
DFAS, problem disbursements and in-transit disbursements have been reduced
from $12.5 billion (absolute value) in FY 1999 to $4.4 billion (absolute value)
in FY 2000. As of September 30, 2000, DoD reported $1.7 billion of
unmatched disbursements, $1.2 billion of negative unliquidated obligations and
$1.5 billion (absolute value) of in-transit disbursements. The lack of integrated
finance and accounting systems caused disbursing stations to make
disbursements that were accounted for by stations that were not collocated with
the disbursing stations. Unmatched disbursements occurred when the
accountable station could not match the disbursement to the correct detail
obligation, and negative unliquidated obligations occurred when the
disbursement exceeded the amount of the recorded unliquidated obligation. In-
transit disbursements occurred when DoD reported a disbursement to the U.S.
Treasury, but the disbursement was not received or was not processed by an
accountable station. DFAS and the DoD Components have spent considerable
time and effort reviewing the causes of problem disbursements and developing
actions to eliminate those causes. In addition, the Department has issued more
detailed guidance to reduce problem disbursements. Problem disbursements and
in-transit disbursements can increase the risks of:

       •   fraudulent or erroneous payments being made without detection,

       •   cumulative amounts of disbursements exceeding appropriated
           amounts and other legal spending limits, and

       •   inaccurate and unreliable financial reporting.

Further progress in reducing problem disbursements and in-transit disbursements
is essential to improve the accuracy and reliability of financial reporting.

         Military Retirement Health Benefits Liability. DoD continued to have
problems with accurately reporting its military retirement health benefits
liability. Outpatient visit data in the Composite Health Care System were
unreliable for use in developing the FY 2000 estimate of the military retirement
health benefits liability. Outpatient medical care services represented
$86 billion of the reported FY 2000 unfunded liability of $192.4 billion. The
Assistant Secretary of Defense (Health Affairs) agreed that the data were
unreliable and acted by implementing a quality control program to improve the
quality of data in time to affect the FY 2001 estimate. Therefore, the FY 2000
estimate of $192.4 billion was based on unreliable data. In addition, the DoD
information used to determine the cost of medical care is being reviewed by a
DoD working group, which is developing more complete cost information for
use in developing the estimate.

       Environmental Liabilities. For FY 2000, $63.2 billion reported for
DoD Environmental Liabilities could not be verified because of insufficient
controls and inadequate audit trails. As a result, the Environmental Liabilities
reported on the DoD Agency-Wide financial statements for FY 2000 were
unreliable.




                                    12
                 Army General Fund. Procedures and controls were not
adequate to ensure that reported environmental values were complete and
accurate. An environmental restoration liability of $6.7 billion is questionable
because supporting documentation does not exist. In addition, the Army does
not fully report environmental liabilities for unexploded ordnance on training
ranges and national defense equipment disposal costs. Further, where estimated
liabilities were disclosed for Formally Used Defense Sites, the Army corrected
their financial statement footnotes the week after issuance to remove contingent
liabilities of about $103 billion for transferred ranges.

                Navy General Fund. The Naval Facilities Engineering
Command and the Assistant Secretary of the Navy (Financial Management and
Comptroller) did not have adequate procedures and controls to ensure that the
amounts reported for environmental liabilities were complete, accurate, or
adequately supported. The Navy General Fund had internal control deficiencies
related to the accrued restoration costs, Cost-to-Complete Model, and other
environmental liabilities.

               Air Force General Fund. The Air Force General Fund did not
have sufficient time to implement Defense Environmental Restoration Program
Supplemental Management guidance, dated August 1999, to correct internal
control deficiencies.

System-Related Problems. System-related problems were tied predominantly
to weaknesses in DoD financial management systems. The FMIP generally
discussed many system-related problems in DoD.

        General Property, Plant, and Equipment (PP&E). Although the
Military Departments made some improvements in the accounting for and
reporting of real property, significant internal controls and system weaknesses still
exist that prevent the accurate reporting of the value of real property in DoD. We
were unable to verify the $112.5 billion reported for DoD general PP&E because
of a lack of supporting documentation. Previously identified problems still exist
that affect the accuracy of amounts reported for real property.

       •   Controls necessary to accurately record additions, deletions, and
           capital improvements made to real property have not been fully
           implemented.

       •   System deficiencies still exist that require management to manually
           manipulate data to account for real property.

       •   Personnel responsible for maintaining the real property databases still
           require training.

               Army General Fund. Controls, procedures, and systems to
accurately report the value of Army equipment were not adequate. During
FY 1999, the Army began fielding the Defense Property Accountability
System to meet and comply with financial reporting standards. Because
fielding was not completed in FY 2000, the Army used data calls to determine
general equipment values and calculate related depreciation. However, the
timing of the data call limited the ability to perform the tests necessary to
validate the reported value of general equipment on the FY 2000 financial


                                    13
statements. Material misstatements existed that question the reliability and
completeness of property book data and value of general equipment reported.

Despite the improvements, the Army had yet to correct the internal control
weaknesses related to noncompliance with SFFAS No. 6 and noncompliant
systems identified by the Army Audit Agency during the FY 1999 audit. The
Assistant Chief of Staff for Installations Management was still developing a
policy memorandum to address the internal control issues. Also, the Army
needed to correct improper recordings of additions, deletions, or modifications
of property and should have developed procedures for identifying and reporting
prior period adjustments caused by either inaccurate or late recording of real
property assets.

                Army Working Capital Fund. During FY 2000, the Army
Working Capital Fund activities implemented the Defense Property
Accountability System for all of its property, plant, and equipment. The Army
believed that the new system provided more reliable values for the balance sheet
and depreciation expense for the Statement of Net Cost. As a result of the
system implementation, the net book value of property, plant, and equipment
was reduced by about $606 million from FY 1999 to FY 2000. The Army
Audit Agency could not verify that the reported value (about $1.2 billion or
about 9 percent of total assets) for property, plant, and equipment was fairly
presented.

                 Navy General Fund. The Naval Audit Service reported limited
improvements in the Navy internal controls on reporting real property in the
database. The one improvement involved the scheduled changes to the Navy
Facilities Asset Data Base. According to the Navy, the Navy Facilities Asset
Data Base information will be available on the web and can be readily accessed
and updated. The Navy plans to release a new version of the system (the
Internet Naval Facility Asset) shortly. The Navy also changed the ownership of
real property from the activity commanding officers to the major claimants.
There will be eight major claimants responsible for real property. These
activities will report real property changes to the Navy Facilities Asset Data
Base via Expanded Access (on-line terminals) or through the engineering field
division. The Navy also plans to increase training on the use of the Navy
Facilities Asset Data Base/Internet Naval Facility Asset.

                Navy Working Capital Fund. Net asset values for general
PP&E for supply management were not transaction-based because no wall-to-
wall inventory was performed to provide values for each item. Controls over
net acquisition, disposals, and capital improvements were not adequate to detect
or prevent errors because of management inattention, insufficient staffing, and
lack of training.

               Air Force General Fund. Within the Air Force, real property
personnel at most of the locations visited developed local inventory procedures
and schedules for real property. However, the number of facilities inventoried
in FY 2000 was not always sufficient to ensure complete, installation-wide
inventories within a 5-year period. Real property personnel at most locations
retained real property documentation in accordance with Air Force guidance.




                                   14
               Contractor Performance Management System. The USD(C)
has directed that the Contractor Performance Management System should not be
used to report the $20.5 billion of Government-owned materials held by
contractors. This system is not a reliable accounting and reporting system;
however, the decision not to use the system excludes $20.5 billion of contractor
held material from being reported in the financial statements.

        Inventory and Related Property. DoD financial management systems
were unable to accurately report amounts for inventory and related property on
the DoD Agency-Wide financial statements for FY 2000. The inventory and
related property line items consist of inventory, operating materials and
supplies, and stockpile materials. Internal controls over inventory were
inadequate.

                Operating Materials and Supplies. In general, the same
problems existed as last year for the FY 2000 DoD financial reporting of
operating materials and supplies. Specifically, the Military Departments were
unable to implement all elements of Statements of Federal Financial Accounting
Standards (SFFAS) No. 3 because of limitations of their financial management
processes and systems, including nonfinancial feeder systems. As a result, the
Military Departments were unable to value operating materials and supplies at
historic cost, did not use generally accepted accounting principles to expense
operating materials and supplies, and had not completed the identification of all
items that constitute operating materials and supplies. The Military
Departments recognized these problems and, as such, qualified the
appropriateness of their reported operating materials and supplies balances.
Additionally, the Military Departments stated in their financial statements that
they were pursuing process and system improvements and addressing the
limitations of financial and nonfinancial feeder systems. However, system
improvements will not be accomplished for many years. For example, as stated
in IG, DoD, Report No. D-2001-014, “Development and Implementation of a
Joint Ammunition System,” December 6, 2000, the DoD spent 8 years and
$41.3 million developing a new system for the logistical and financial reporting
of its ammunition inventory. Despite those efforts, DoD did not produce a
working system or even have one near completion. Ammunition totaled
$43.1 billion for FY 2000 and was a material part of each of the Military
Department’s reported operating materials and supplies.

              Army General Fund. The Army made some reporting
improvements, but internal controls were not fully effective over the reporting
of munitions as inventory. Also, the Army was still evaluating the criteria for
reporting operating materials and supplies.

               Navy Working Capital Fund. Net reported values for
inventory could not be relied on because no sound sampling plan for measuring
the dollar accuracy of reported inventory stored at Government and contractor
locations had been implemented. In addition, inventory in-transit from
customers and inventory for agency operations (supplies and materiel) could
not be verified because Navy Working Capital Fund logistics activities and
DFAS Cleveland did not reconcile the general ledger account balances to
subsidiary records.




                                   15
               Defense Logistics Agency. The Defense Logistics Agency non-
fuel inventory pricing data was inaccurate or unsupported and cannot be relied
upon to support the $7.2 billion of non-fuel inventory reported on the Defense
Logistics Agency financial statements. Also, the inventory process used by the
Defense Logistics Agency to capture and report the cost of its $2.3 billion bulk
petroleum product (fuel) inventory was not adequate because of untimely
completion and reconciliation of inventories and untimely posting of fuel
transactions. Additionally, the logistics and financial systems did not capture
the data needed to value year-end inventories at historic cost. For FY 2000, the
Defense Logistics Agency contracted with a Certified Public Accounting firm to
assess the auditability of its financial statements. The Certified Public
Accounting firm has done an exploratory sample related to the $9.5 billion of
reported inventory, and they will be making recommendations to improve the
sample plans and controls over the inventory.

        Required Supplementary Stewardship Information. Stewardship
information included National Defense PP&E, heritage assets, stewardship land,
non-Federal physical property, and research and development. This information
was not required to be audited, and we did not audit the information. The DoD
was not in compliance with existing reporting requirements for National Defense
PP&E. SSFAS No. 8 requires reporting the value of National Defense PP&E
using the latest acquisition cost method. The DoD is reporting National Defense
PP&E quantities, condition, and investment trends for major types of National
Defense PP&E. The DoD is unable to comply with the existing reporting
requirement because many of DoD National Defense PP&E accountability and
logistics systems do not contain a value for the National Defense PP&E assets.
The Federal Accounting Standards Advisory Board is holding deliberations on
various alternatives for reporting National Defense PP&E.

        Statement of Net Cost. For FY 2000, the DoD Agency-wide
Consolidated Statement of Net Cost reported total intragovernmental program
costs of $9.7 billion, total program costs with the public of $365.1 billion, and
earned revenues of $27.4 billion. The DoD process for reporting net costs does
not capture costs and earned revenues by program cost categories that are
consistent with performance goals. Also, the budget basis of accounting is used to
prepare the net cost statement, and intragovernmental transaction amounts are not
adequately supported. The information in the Statement of Net Cost is not
reliable and provides little useful information to the user. DoD recognizes the
difficulties in preparing the Statement of Net Cost and has disclosed its departure
from accounting standards in its Note to the Principle Statements for FY 2000.

               Program Cost Categories. The program categories used for the
DoD Agency-wide and DoD Components’ Statements of Net Cost were not
consistent with the DoD performance goals and measures outlined in the DoD
Government Performance and Results Act of 1993 (GPRA) strategic and annual
performance plans. DoD guidance incorrectly specified the use of appropriation
categories, such as military personnel and operations and maintenance. The
appropriation categories were incorrectly specified because DoD did not do the
following:

       •   identify the cost accounting information needed for DoD to establish
           program categories that were consistent with their GPRA performance
           plans, or


                                   16
        •    have adequate managerial cost accounting systems in place to collect,
             process, and report operating costs.

DoD has recognized this issue and has made the disclosure in the Notes to the
Principle Statements for FY 2000 which state:
             the Department identifies programs based upon major appropriation
             groups provided by Congress. The Department is in the process of
             reviewing available data and attempting to develop a cost reporting
             methodology that balances the need for cost information required by
             the Statement of Federal Financial Accounting Standard (SFFAS)
             No. 4, “Managerial Cost Accounting Concepts and Standards for the
             Federal Government,” with the need to keep the financial statements
             from being overly voluminous.

As a result, the DoD Agency-Wide and DoD Components’ Statements of Net
Cost did not provide cost-of-operations data that were consistent with GPRA
performance goals and measures. Without future changes to reporting
requirements, reliance on the financial statements would yield limited
information related to GPRA.

                Basis for Accounting. DoD generally records transactions on a
budgetary basis and not on an accrual basis as required by accounting standards.
This is particularly true of the accounting for the general funds, which generally
record transactions on a cash basis. DoD has disclosed in the Notes to the
Principle Statements that information in the Statement of Net Cost was presented
on the budget basis. For example, cost information was based on obligation and
disbursements as adjusted for payroll accruals and environmental liabilities. As
a result, the FY 2000 DoD Agency-Wide Statement of Net Cost may not reflect
the full cost of its programs.

                Intragovernmental Transactions. Table 3 shows the
intragovernmental amounts reported in the FY 2000 DoD Agency-Wide Statement
of Net Cost and the supporting Required Supplemental Information schedule. The
$89.5 billion in intragovernmental costs and $89.5 billion in intragovernmental
revenue eliminations were not reconciled with intragovernmental accounts for
buyer and seller transactions. Instead DFAS made $135.5 billion in unsupported
department-level accounting entries to intragovernmental and public accounts that
were not adequately reconciled in order to adjust the intragovernmental accounts
to cover the elimination amounts. DoD did not issue adequate guidance for
making eliminating entries. Specifically, DoD guidance provided instructions to
adjust buyer-side data to agree with seller-side data, without conducting proper
research to reconcile the difference.

                  Table 3. Intragovernmental Costs and Revenues
                                    (in billions)
                                        Combined             Less            Consolidated
            Total Program                Totals          Eliminations          Totals
   Intragovernmental Costs                $ 99.2             $89.5            $ 9.7
   Earned Revenues                        $116.9             $89.5            $27.4*
 * Approximately $16 billion of earned revenue was intragovernmental.




                                        17
Since FY 1996, the Department has been slow to initiate improvements needed to
ensure that all of the intragovernmental transactions were captured and the
amounts were accurate. In response to prior Inspector General, DoD, audit
reports, DoD indicated that it could not perform the critical checks because many
of the DoD accounting systems did not capture all the data necessary to reconcile
with partners or to accurately identify elimination transactions and balances. As
a result, the DoD Agency-wide financial statements continue to contain material
misstatements, and the intragovernmental line items are unreliable.

        Statement of Financing. DoD does not have the processes and financial
systems in place to prepare a reliable Statement of Financing. The Statement of
Financing reconciled $454.1 billion of obligations reported on the Statement of
Budgetary Resources with the $347.5 billion net cost of operations reported on the
Statement of Net Cost of the DoD Agency-Wide financial statements. However,
this information was unreliable because DoD made adjustments to force budgetary
and proprietary information to agree and did not disclose eliminating entries.

               Adjustments to Accounting Information. Budgetary data are
not in agreement with proprietary Expenses and Assets Capitalized. This causes
a difference in Net Cost of Operations between the Statement of Net Cost and
the Statement of Financing. The Statement of Financing, “Costs Capitalized on
the Balance Sheet” has been adjusted by a net decrease of $28.6 billion and
“Other” has been adjusted by a net decrease of $10.5 billion to make the two
statements reconcile. DoD has disclosed these differences between budgetary
and proprietary data for the DoD as a previously identified deficiency. The
Notes to the Principal Statements stated that DoD would develop alternative
procedures to better prepare the Statement of Financing for FY 2001.

                Eliminating Entries. The Statement of Financing is presented as
combined or combining statements rather than consolidated statements because
the intra-equity transactions have not been eliminated. When statements are
prepared on a combined basis, the double accounting effects of intra-agency
transactions are not removed. OMB Bulletin 97-01 allows the option to prepare
the Statement of Financing on a combined or consolidated basis; however, DoD
guidance specifies that the Statement of Financing should be prepared on a
combined basis. Although DoD has disclosed that the Statement of Financing
has been prepared on a combined basis in the Notes to the Principle Statements,
the amounts reported are materially overstated and reduce the usefulness of the
information reported.

        Statement of Budgetary Resources. We were unable to express an
opinion on the Statement of Budgetary Resources because of deficiencies in
internal controls and accounting systems related to the Statement of Budgetary
Resources. The following internal control weaknesses were identified.

               Army General Fund. DFAS has not developed a single
database for the Army financial statements that contains the detailed
transactions supporting the summary transactions used to prepare the Army
Reports on Budget Execution and the Army financial statements. Also,
problem disbursements remain a significant financial reporting issue for the
Army. The DFAS changed its procedure in FY 2000 regarding the recording
of contract holdbacks. The Army Audit Agency did not perform detailed audit
work in this area during FY 2000, but did determine that DFAS had begun to


                                   18
record contract holdbacks during FY 2000. However, this limited review did
not enable the Army Audit Agency to verify the extent of the DFAS corrective
action.

                Navy General Fund. While problem disbursements do not
necessarily represent inappropriate payments, they do have a negative impact on
the Navy budget execution and cause delays of vendor payments. Also,
in-transit disbursements cause delays in posting disbursements to accounting
records. In addition, suspense account balances require extensive
reconciliations to ensure that the accounts are properly used, supported by
adequate documentation, cleared timely, and in agreement with Department of
the Treasury balances. Transactions residing in suspense accounts can conceal
problem disbursements.

                Air Force General Fund. The process for reporting obligated
balances is subject to material weaknesses because transaction records are
unavailable and internal controls did not ensure proper matching of
disbursements with related obligations. DFAS accounting systems do not
maintain individual transaction records of Air Force obligations incurred and
recoveries of prior year obligations. Instead, the systems calculate totals for
these types of transactions based on net changes in the obligated balances during
the period. As a result, no transaction records are available for audit.
Moreover, the totals for obligations incurred and recoveries of prior year
obligations included on the Statement of Budgetary Resources at $88.2 billion
and $1.5 billion, respectively, could be materially misstated because the
accounting systems ignore individual increases and decreases which may have
contributed to the calculated net change in obligations. Also, the DFAS internal
controls did not ensure proper matching of disbursements with related
obligations, resulting in $60.8 million of negative unliquidated obligations in the
accounting systems. Through electronic commerce initiatives and prevalidation
of disbursements, DFAS and Air Force officials continue to work to resolve this
long-standing internal control issue.

                Air Force Working Capital Fund. DFAS Columbus did not
provide supporting documentation for 32 ($22.6 million) of 86 ($65 million)
disbursement transactions tested. In addition, Air Force fund managers were
not able to provide supporting documentation for 374 ($516.9 million) of
725 ($891 million) open obligation transactions (such as undelivered orders
outstanding, accounts payable, unfilled customer orders, and accrued expenses).
Also, the Air Force Working Capital Fund accounting systems have not fully
implemented the U.S. Government Standard General Ledger at the transaction
level for budgetary accounts. Therefore, instead of using budgetary accounts to
prepare the Report of Budget Execution, DFAS Denver relied on proprietary
and statistical accounts and data not recorded in the accounting records. As a
result, the amounts presented in the Statement of Budgetary Resources and the
Statement of Financing were not auditable.

Information Security. Security and application controls over financial
management systems are critical to ensuring the integrity of data reported on the
DoD Agency-Wide financial statements for FY 2000. DoD has become
increasingly dependent on automated information systems to carry out its
operations and to process, maintain, and report information in the annual
financial statements. To date, DoD has identified at least 167 automated


                                    19
systems that process, maintain, and report financial information. We issued
three reports and the General Accounting Office issued one report that identified
security and application control weaknesses over systems that affected the
amounts reported on the DoD Agency-Wide financial statements for FY 2000.

        Defense Civilian Pay System. The Defense Civilian Pay System serves
more than 704,000 DoD civilian employees and processes transactions valued at
$37.5 billion annually. We concluded in IG, DoD, Report No. D-2001-055,
“General Controls for the Defense Civilian Pay System,” February 21, 2001,
that general controls did not provide reasonable assurance of the integrity,
confidentiality, and availability of data processed by the Defense Civilian Pay
System. We identified 37 weaknesses in establishing an overall security
program, controlling access to the system, implementing procedures for
developing and changing computer software, establishing policies for proper
segregation of duties, and establishing procedures for preventing disruptions in
service to customers. As a result, DoD managers may not be able to rely on
data processed by the Defense Civilian Pay System or the system’s ability to
provide reliable data for financial statements. Until corrected, these weaknesses
may adversely impact the potential for financial statements that reflect
transactions processed by the Defense Civilian Pay System. Further, the
weaknesses would cause the financial statements to require substantial additional
verification measures. Also, the identified weaknesses may increase the
possibility of unauthorized activity taking place without being detected.

        Defense Joint Military Pay System. The Defense Joint Military Pay
System contains pay files for about 2,265,000 service members and processes
more than 6 million payroll transactions monthly, valued at approximately
$49 billion annually. We concluded in IG, DoD, Report No. D-2001-052,
“Controls Over the Defense Joint Military Pay System,” February 15, 2001,
that general controls were not effectively providing reasonable assurance of the
integrity, confidentiality, and availability of data processed by the Defense Joint
Military Pay System. We identified weaknesses in limiting access to the
system, establishing controls to monitor the use of the system’s software,
establishing an overall security program, implementing procedures for
developing and changing computer software, and establishing procedures for
preventing disruptions in service to customers. Weak controls had allowed
almost 20,000 security violations to remain uninvestigated. In addition, the
Defense Information Systems Agency had identified significant deficiencies in
controls over the system that adversely impacted the accessibility, reliability,
and security of the system. More than 70 percent of those deficiencies remained
uncorrected after more than a year. As a result, DoD managers may not be able
to rely on data that the Defense Joint Military Pay System processed or the
system’s ability to provide reliable data for financial statements. The general
control weaknesses identified will adversely affect obtaining a favorable audit
opinion until corrected. Also, the identified weaknesses could increase the
possibility for unauthorized activity to occur and not be detected in a timely
manner.

       Integrated Accounts Payable System. Annually, the DFAS uses the
Integrated Accounts Payable System to make approximately 1.2 million vendor
payments, valued at $16.5 billion, for Air Force customers. We concluded in
IG, DoD, Report No. D-2000-139, “Controls Over the Integrated Accounts
Payable System,” June 5, 2000, that controls over the Integrated Accounts


                                    20
     DoD conducted significant monitoring activities during FY 2000. DoD
     continued to revise the Financial Management Improvement Plan (FMIP) and
     the Implementation Strategies to identify and address financial management
     problems and the remedies in place to correct financial management practices
     and systems. DoD made progress in implementing the FMIP and the
     Implementation Strategies. However, DoD must continue to revise and
     improve these efforts to ensure that progress continues toward improved
     financial management.

     We identified areas where DoD could improve its monitoring activities related
     to the preparation of the DoD Agency-Wide financial statements for FY 2000.
     We determined that a primary cause of inconsistent, inaccurate, and
     incomplete reporting was the inability of DoD to perform adequate reviews
     and reconciliations while preparing the financial statements. As previously
     discussed, we identified $1.2 trillion in unsupported or improper department-
     level accounting entries that affected amounts reported on the DoD Agency-
     Wide financial statements for FY 2000. Many of these entries were the result
     of inadequate reviews and reconciliations. Reviews and reconciliations are a
     key monitoring activity that help to identify problems in financial management
     and reporting. Implementation and consistent use of reviews and
     reconciliations will improve the ability of DoD to identify and solve problems
     and produce auditable financial statements.

Assessment of Fraud Risk
     SAS No. 82 requires us to specifically assess the risk of material misstatement
     of the DoD Agency-Wide financial statements for FY 2000 due to fraud, and to
     consider that assessment in designing audit procedures to be performed. SAS
     No. 82 describes two types of fraud that are relevant to the auditors’
     consideration of fraud in a financial statement audit: misstatements arising from
     fraudulent reporting and misstatements arising from misappropriation of assets.
     Misstatements arising from fraudulent financial reporting are intentional
     misstatements or omissions of amounts or disclosures in financial statements to
     deceive financial statement users. Misstatements arising from misappropriation
     of assets involve the theft of an entity’s assets where the effect of the theft
     causes the financial statements not to be presented in conformity with generally
     accepted accounting principles. For each of the two types of fraud, SAS No. 82
     identifies fraud risk factors that auditors should consider.


Risk Factors for Fraudulent Financial Reporting
     Risk factors for fraudulent financial reporting included:

            •   motivation for management to engage in fraudulent financial
                reporting;

            •   failure of management to display and communicate an appropriate
                attitude regarding internal controls and the reporting process;

            •   excessive participation by nonfinancial management in selecting
                accounting principles or determining significant estimates;


                                         22
            •   assets, liabilities, revenues, and expenses based on significant
                estimates that involved unusually subjective judgments or
                uncertainties; and

            •   significant, unusual, or highly complex transactions or adjustments,
                especially those close to year’s end, that posed difficult questions.

     Based on our financial audits, we determined that many of the fraudulent
     financial reporting risk factors were present within DoD. For example:

            •   DFAS processed substantial unsupported year-end accounting entries
                to prepare and ensure consistency in DoD financial statements.

            •   DoD reporting entities were unable to provide auditors with adequate
                audit trails linking financial statement data to supporting transaction-
                level data.

            •   DoD reporting entities were unable to demonstrate adequate
                accounting control over DoD assets.

            •   DoD financial management processes and systems and controls were
                not adequate.

     These examples are discussed in greater detail in this report in the section on
     Control Environment and the section on Control Activities and Information and
     Communication.

     The presence of these risk factors did not necessarily indicate fraudulent financial
     reporting. However, the presence of these risk factors in DoD, combined with
     the fraud investigations conducted by the Defense Criminal Investigative Service,
     indicated an increased level of risk of material misstatements and that the control
     environment in DoD was susceptible to fraudulent financial reporting. The
     existence of many of these fraud risk factors was due to the fact that financial
     reporting in DoD is an evolving process. DoD is adapting many existing
     nonfinancial procedures and systems to fulfill more stringent financial
     management and reporting requirements.


Risk Factors for Misappropriation of Assets
     Risk factors for misappropriation of assets included:

            •   large amounts of cash on hand or processed;

            •   inventory characteristics, such as small size, high volume, or high
                demand;

            •   lack of appropriate management oversight;

            •   inadequate recordkeeping;

            •   lack of appropriate segregation of duties or independent checks;



                                         23
           •   lack of an appropriate system for authorization and approval of
               transactions;

           •   poor physical safeguards over assets; and

           •   lack of timely and appropriate documentation for transactions.

    All audits conducted by the IG, DoD, include steps to provide reasonable
    assurance of detecting fraud or other illegal acts. Any suspected instances of
    fraud or other illegal acts are coordinated with the Defense Criminal
    Investigative Service. Most of these referrals involve misappropriation of
    assets. In FY 2000, the Defense Criminal Investigative Service initiated
    156 cases that involved DoD financial operations and at the end of FY 2000 had
    370 open cases that involved DoD financial operations.

    We were unable to determine the effects of these fraud investigations on the
    DoD Agency-Wide financial statements for FY 2000. However, these
    investigations demonstrated that DoD was vulnerable to misappropriation of
    assets. This is particularly true for DoD contractors or DoD employees with
    malicious intent. Their knowledge of systemic weaknesses in DoD would make
    it easier for them to commit and disguise inappropriate actions.

Conclusion
    Although progress has been made, DoD internal controls were not adequate to
    ensure that resources were properly managed and accounted for, that DoD
    complied with applicable laws and regulations, and that the financial statements
    were free of material misstatements. DoD internal controls did not ensure that
    accounting entries impacting financial data were fully supported and that assets,
    liabilities, costs, and budget resources were properly accounted for and
    reported. DoD financial reporting guidance was inadequate and DoD did not
    provide the financial statements to the auditors in a timely manner. These
    problems are not new but are recurring problems that DoD needs to address and
    correct.

    The material weaknesses and reportable conditions we identified were also
    reported in the management representation letter for the DoD Agency-Wide
    financial statements for FY 2000, the DoD Components’ Annual Statements of
    Assurance for FY 2000, and the DoD FMIP.




                                       24
Review of Compliance With Laws and
Regulations
Reportable Noncompliances
     Reportable instances of noncompliance are failures to follow requirements, laws,
     or regulations that cause us to conclude that the aggregation of the misstatements
     resulting from those problems is either material to the financial statements, or that
     the sensitivity of the matter would cause others to perceive it as significant.

     Our objective was to assess the compliance with laws and regulations related to
     the DoD Agency-Wide financial statements for FY 2000 and not to express an
     opinion. Therefore, we do not express an opinion on compliance with laws and
     regulations. DoD did not fully comply with laws and regulations that had a
     direct and material affect on its ability to determine financial statement amounts.
     We identified noncompliance issues related to the Federal Financial
     Management Improvement Act of 1996 (FFMIA); the Chief Financial Officers
     Act of 1990 (CFO); Section 3512, Title 31, United States Code; laws governing
     the claims of the United States Government; and the GPRA.


Federal Financial Management Improvement Act of 1996
     Under the FFMIA, we are required to report whether the agency’s financial
     management systems substantially comply with Federal financial management
     systems requirements, Federal accounting standards, and the U.S. Government
     Standard General Ledger (USGSGL) at the transaction level. We performed our
     review on FFMIA in accordance with OMB memorandum “Revised
     Implementation Guidance for the Federal Financial Management Improvement
     Act,” January 4, 2001.

     The results of our tests disclosed instances where the agency’s financial
     management systems did not substantially comply with the three requirements.
     The Military Departments, Defense agencies, and DFAS are collectively
     responsible for the financial management systems that support DoD. The
     Military Departments and Defense agencies are responsible for the mixed data
     systems. These data are fed into the accounting and finance systems that are the
     responsibility of DFAS. DFAS used data from the financial management
     systems and other sources to compile the DoD Agency-Wide financial
     statements for FY 2000. DoD identified at least 167 systems that were critical
     to financial management. Because it is impractical to report the deficiencies for
     all 167 systems, this report gives examples of the most significant system
     deficiencies.

            •   The DoD FMIP identified 34 critical finance, accounting, and feeder
                systems that do not comply with FFMIA. The noncompliant critical
                finance, accounting, and feeder systems in the FMIP are identified in
                Appendix D.




                                         25
       •   We identified an additional 11 critical finance, accounting, and
           feeder systems that may not be compliant with the FFMIA although
           they were reported as compliant in the DoD FMIP.

Federal Financial Management System Requirements. Federal financial
management system requirements were established in OMB Circular No.
A-127, “Financial Management Systems,” July 23, 1993, which requires
financial management systems to provide complete, reliable, consistent, timely,
and useful information. To achieve this goal, DoD and other Federal agencies
must establish and maintain a single, integrated financial management system.
In addition, the Joint Financial Management Improvement Program published a
series of “Federal Financial Management System Requirements” that establishes
standard requirements for Federal agencies’ integrated financial management
systems. For FY 2000, the financial management systems that support DoD did
not substantially comply with Federal financial management system
requirements, as shown by the following.

       •   DoD did not have an integrated financial management system.

       •   The DFAS Indianapolis (Sustaining Forces) did not employ an
           integrated financial management system for departmental financial
           reporting. The DFAS Indianapolis (Sustaining Forces) used the
           Program Budget Accounting System to account for funding, the
           “TI [Treasury Index] 97 Application” to prepare Reports on Budget
           Execution, miscellaneous systems to report on expenditures, and an
           entirely separate set of systems for compilation.

       •   Systems supporting the Air Force WCF did not provide adequate
           application controls to critical Air Force feeder systems such as
           separation of duties, support for transactions, transaction controls,
           and data reconciliation.

       •   Air Force and DFAS financial management systems did not maintain
           adequate subsidiary records for audit trails.

       •   The FMIP did not include all financial management systems that
           supported the Army WCF.

Federal Accounting Standards. Federal agencies are to follow the SFFASs
agreed to by the Director, OMB; the Comptroller General of the United States;
and the Secretary of the Treasury. Currently, there are 18 SFFASs and 3
Statements of Federal Financial Accounting Concepts (SFFAC). For FY 2000,
the financial management systems that supported DoD did not substantially
comply with Federal accounting standards, as shown by the following:

       •   DoD financial management systems did not properly account for
           assets and liabilities in accordance with SFFAS No. 1.

       •   DoD financial management systems did not value inventory in
           accordance with SFFAS No. 3.

       •   DoD financial management systems did not accumulate costs for
           major programs in accordance with SFFAS No. 4.


                                    26
            •   DoD financial management systems did not value PP&E in
                accordance with SFFAS No. 6.

            •   DoD financial management systems did not recognize revenue in
                accordance with SFFAS No. 7.

            •   The financial reporting process and financial statements did not
                comply with SFFAC No. 1 because $89.5 billion of differences
                between trial balances and Reports on Budget Execution were not
                reconciled. These differences existed because an integrated
                financial management system for departmental financial reporting
                was not employed.

     USGSGL at the Transaction Level. The OMB requires Federal agencies to
     implement the USGSGL in their financial systems. The USGSGL must be
     implemented at the transaction level. Federal agencies are permitted to
     supplement their application of the USGSGL to meet agency-specific
     information requirements. However, agency standard general ledgers must
     maintain consistency with the USGSGL. For FY 2000, DoD finance and
     accounting lacked a standard, transaction-driven general ledger because the
     USGSGL was not fully implemented throughout the systems.

     DoD has acknowledged that its financial management systems have significant
     procedural and systemic deficiencies. DoD has included a discussion of those
     deficiencies in previous Annual Statements of Assurance, the management
     representation letter for the DoD Agency-Wide financial statements for
     FY 2000, and the FMIP.


Chief Financial Officers Act of 1990
     The CFO Act, 31 U.S.C. 501, as amended by the Federal Financial
     Management Act of 1994, required DoD to prepare audited financial statements
     and submit them to OMB no later than March 1, 2001. In addition, the
     CFO Act required DoD to prepare a Five-Year Financial Management Plan
     describing activities that DoD will conduct during the next 5 years to improve
     financial management. The financial statements we received for FY 2000 were
     unauditable. The FMIP addressed the requirement in the CFO Act for a
     Five-Year Financial Management Plan.


Section 3512, Title 31, United States Code
     The evaluation and reporting requirements of the Federal Managers’ Financial
     Integrity Act of 1982 for an agency’s internal accounting and administrative
     control systems were incorporated in 31 U.S.C. 3512. That section requires DoD
     to evaluate the systems and to annually report whether those systems are in
     compliance with 31 U.S.C. 3512. DoD fulfilled part of 31 U.S.C. 3512
     requirement by including the discussion of financial management system
     deficiencies, usually published as part of the Annual Statement of Assurance, in
     its FMIP. The DoD Components’ Annual Statements of Assurance and the FMIP
     discussed systemic and nonsystemic internal control weaknesses. However, as


                                       27
     previously discussed, DoD has not completed its evaluation of all the finance,
     accounting, and feeder systems that have been identified for long-term use.
     Therefore, DoD was unable to completely report all system weaknesses.

     The USD(C) implemented a new Financial and Feeder Systems Compliance
     Process in January 2001 patterned after the DoD successful “Y2K” process to
     ensure that each critical system is compliant with applicable Federal financial
     management requirements. Each critical system will be shown in one of five
     phases: awareness, evaluation, renovation, validation, and compliance. The
     process established a Senior Financial Management Oversight Council and a
     supporting working group to provide oversight, monitoring, approval, and
     verification of the status of each system and ensure exit criteria for each phase
     has been fulfilled. This process will help ensure that senior DoD officials are
     aware of both the importance of having compliant systems and the status of each
     critical system. We support this initiative, and DoD auditors will be
     participating in the Validation Phase to verify the existence of adequate
     documentation to support management’s certification that each system is
     compliant.


Provisions Governing Claims of the United States Government
     Public Law 89-508, “Federal Claims Collection Act of 1966,” (codified as
     31 U.S.C. 3711(a)(1) requires DoD to attempt to collect all claims of the United
     States for money or property arising out of DoD activities or activities referred to
     DoD. Public Law 97-365, “Debt Collection Act of 1982,” (codified as
     31 U.S.C. 3716 and 3717) allows DoD to collect a claim by means of
     administrative offset within 10 years, to charge a minimum annual rate of interest
     on outstanding debts, and to assess charges to cover the costs of processing and
     handling delinquent claims. Additionally, Public Law 104-134, “Debt Collection
     Improvement Act of 1996,” (codified as 31 U.S.C. 3711(g)(1)(A)) requires DoD
     to transfer to the Treasury Department any debts delinquent for at least 180 days.
     The Treasury Department is then responsible to either collect the debt or to
     terminate collection actions on the debt or claim.

     During FY 2000, our audit of the debt collection process showed that DoD had
     204 open debts totaling $47.2 million with 37 large DoD contractors, some of
     which have remained open since the mid-1980s. Our validation of these claims
     showed that 38 claims valued at $9 million were apparently invalid or had
     apparently lapsed. Debts remained open for these DoD contractors because DoD
     did not identify all debts in a timely manner and did not actively work to collect
     or resolve these debts. As of May 31, 2000, DoD had not collected $38.2 million
     in contractor debt for large DoD contractors. DoD has 10 years to collect debts
     before they expire. The collection period remaining on these debts range from
     3 months to 9 years. In addition, if DoD corrects the internal control weaknesses
     identified, additional debts will be collected.




                                         28
Government Performance and Results Act of 1993
     The GPRA, 31 U.S.C. 1101, was enacted primarily to improve the confidence
     of the American people in the capability of the Federal Government by
     systematically holding Federal agencies accountable for achieving program
     results. GPRA requires that each Federal agency prepare a strategic plan and
     annual performance plans and reports. DoD has prepared the strategic and
     performance plans that included two DoD corporate-level goals and seven
     performance goals contained in the FY 2000 DoD GPRA performance plan. An
     additional objective to “Improve DoD financial and information management”
     was added in the FY 2001 DoD GPRA performance plan. The “Improve DoD
     financial and information management” goal included two financial management
     relevant performance measures. Measure 2.5.1. was to reduce the number of
     noncompliant accounting and financial management systems to seven for
     FY 2000. Measure 2.5.2. was to achieve an unqualified opinion on one
     financial statement for FY 2000. Although DoD achieved the one unqualified
     opinion, the Military Retirement Fund financial statements, it did not achieve its
     goal of seven noncompliant accounting and finance systems.

     DoD tracks its progress in reducing the number of noncompliant systems
     through the DoD FMIP. The FY 2000 FMIP reported 11 noncompliant
     accounting and finance systems. Table 4 shows a comparison of the
     performance goal and the number of reported noncompliant systems.

         Table 4. Comparison of Measure and Performance for Reducing the
             Number of Noncompliant Accounting and Finance Systems
                                    Number per        Number per         Short of
                                    Performance        FY 2000          (Excess) of
           Type of System             Measure           FMIP               Goal
          Accounting                     5               10                  5
          Finance                        2                1                 (1)
               Totals                    7               11                  4

     The number of noncompliant accounting and finance systems reported by DoD
     in the FY 2000 FMIP does not include 51 legacy systems. Legacy systems are
     accounting and finance systems that are still being used, but have not been
     evaluated for FFMIA compliance and that DoD plans to eventually eliminate or
     replace. The FMIP also reported that there were 23 feeder systems that were
     not compliant. The DoD performance measure does not include feeder systems
     although feeder systems are critical to DoD accounting and reporting financial
     information.

     In addition, the compliance status of systems reported in the DoD FMIP the
     number of reported compliant accounting and finance systems is inaccurate.
     Specifically, 3 finance and 4 accounting systems reported as compliant were
     either not compliant or the compliance status was not supported.




                                         29
OMB Bulletin No. 97-01, as amended, requires that DoD include GPRA-
related information in the financial statements, specifically:

       •   the Overview section of the DoD Agency-Wide financial statements
           is to contain a discussion of GPRA performance measures and is to
           provide a link between those performance measures and the programs
           presented in the Statement of Net Cost, and

       •   the program cost categories reflected in the Statement of Net Cost
           should be consistent with the DoD GPRA Performance Plan as
           published in the Annual Defense Report.

Financial Statement Overview. The Overview section of the FY 2000 DoD
Agency-Wide Financial Statements identified and discussed GPRA performance
measures relevant to DoD as required by OMB Bulletin No. 97-01. This
discussion included the two DoD corporate-level goals and seven performance
goals contained in the FY 2000 DoD GPRA performance plan and the additional
objective to “Improve DoD financial and information management” from the
FY 2001 DoD GPRA performance plan. Under the “Improve DoD financial
and information management” objective, the Overview section states that DoD
has reduced the number of finance and accounting systems from 324 in FY 1991
to 76 in FY 2000 and has achieved unqualified opinions on the Military
Retirement Fund financial statements since FY 1995. The performance
measures discussed in the Overview do not have to be identical; however, OMB
No. 97-01 does require the Overview to be consistent with measures included in
GPRA documents and linked to programs in the Statement of Net Cost.
However, the FY 2000 Overview section does not provide DoD managers and
other financial statement users with a link between financial data in the
Statement of Net Cost and the GPRA performance goals and measures. The
DoD Financial Management Regulation, was amended in December 2000, and
now states that the Overview will contain discussion of performance goals
contained in the Strategic plan consistent with the Statement of Net Cost. This
should facilitate the Departments compliance with OMB Circular No. A-11,
which also requires actual performance data for selected key performance goals.

Program Cost Categories. The program cost categories used for the Statement
of Net Cost and the DoD performance goals and measures outlined in the DoD
GPRA performance plan are not consistent. Consistency is essential to ensure
there is a link between program costs and performance goals and measures. The
Statement of Net Cost identifies programs based on the nine major appropriation
categories provided by Congress. Using these appropriation categories as
programs does not meet the intent of SFFAS No. 4 which requires that consistent
cost data, drawn from a common source, support both performance measurement
and financial reporting. Because the DoD programs are not consistent, we
continue to believe it is important that the USD(C) work with the major CFO and
GPRA participants within DoD to ensure that meaningful cost programs are
developed that are based on meaningful performance goals. Until these specific
cost accounting requirements have been identified and developed, it will be
difficult for DoD to develop accounting systems that will provide meaningful cost
information that can be tied to GPRA goals. As a result, Congress, DoD
managers, and other users of the DoD financial statements are not able to
compare net cost-of-operations data provided in the Statement of Net Cost with
performance achievements and shortfalls.


                                   30
Conclusion
    Noncompliance with laws and regulations affected the DoD Agency-Wide
    financial statements for FY 2000. Many noncompliance issues were related to
    deficiencies in financial management systems and may not be fully corrected for
    a number of years. Other noncompliance issues were not specifically related to
    system deficiencies and should be correctable in the near future. All instances
    of noncompliance, including those not identified in this report, should be
    identified and addressed in the FMIP and related supporting documents, and
    DoD should plan for proper corrective actions. Improvement in compliance
    with laws and regulations is essential for DoD to improve financial management
    and reporting and will enhance the ability of DoD to achieve a favorable audit
    opinion. We reported similar instances of noncompliance with laws and
    regulations for the audit of the FY 1999 financial statements.




                                       31
Appendix A. Audit Process

Scope
    Statements Reviewed. We examined the DoD Agency-Wide financial
    statements for FY 2000, the footnotes to the financial statements, the Overview,
    Required Supplemental Stewardship Information, and Required Supplemental
    Information. The financial statements consist of the Balance Sheet, Statement of
    Net Cost, Statement of Changes in Net Position, Statement of Budgetary
    Resources, Statement of Financing, and Statement of Custodial Activity.

    Scope Limitation. The CFO did not provide sufficient or reliable information
    for us to evaluate management’s assertions or verify amounts on the DoD
    Agency-Wide financial statements for FY 2000. Because of the deficiencies in
    the accounting system and internal controls, the scope of our work was not
    sufficient to allow us to render an opinion on the DoD Agency-Wide financial
    statements for FY 2000. To report on the internal controls and compliance
    with laws and regulations, we relied in part on audit work conducted by the
    Military Department audit agencies (the Army Audit Agency, the Naval Audit
    Service, and the Air Force Audit Agency) and the General Accounting Office.
    Our combined audit efforts provide a reasonable basis for our results.

    Accounting Principles. Accounting principles and standards for the Federal
    Government have been established and are under continuous development and
    refinement. The Federal Accounting Standards Advisory Board was established
    by OMB, the U.S. Department of the Treasury, and the General Accounting
    Office. On October 19, 1999, the American Institute of Certified Public
    Accountants recognized the Federal Accounting Standards Advisory Board as
    the body that establishes generally accepted accounting principles for Federal
    Government entities. Therefore, SFFASs issued by the Federal Accounting
    Standards Advisory Board are recognized as generally accepted accounting
    principles for applicable Federal Government entities.

    Agencies are required to follow the hierarchy of accounting principles outlined
    in OMB Bulletin No. 97-01, as amended. The hierarchy is as follows:
    standards agreed to and published by the Director, OMB, the Secretary of the
    Treasury, and the Comptroller General of the United States; interpretations of
    SFFAS issued by OMB; requirements for the form and content of financial
    statements outlined in OMB Bulletin No. 97-01, as amended; and accounting
    principles published by other authoritative sources.

    Review of Internal Controls. In planning and performing our audit, we
    considered DoD internal controls over financial reporting by obtaining an
    understanding of the agency’s internal controls. We determined whether the
    controls had been placed in operation; we assessed control risk; and we
    performed tests of controls in order to determine our auditing procedures for
    the purpose of expressing our opinion on the financial statements. Our purpose
    was not to provide assurance on internal controls over financial reporting.
    Consequently, we did not express an opinion on DoD internal controls.



                                       32
DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
1996, and DoD Instruction 5010.40, “Management Control (MC) Program
Procedures,” August 28, 1996, require DoD organizations to implement a
comprehensive system of management controls that provides reasonable
assurance that programs are operating as intended and to evaluate the adequacy
of controls. Because of DoD material weaknesses in internal controls, we
revised our audit approach to focus on specific internal controls. We obtained
an understanding of management’s process for evaluating and reporting on the
internal controls and accounting systems and compared the material weaknesses
in financial reporting, to the material weaknesses and reportable conditions we
identified. A copy of this report will be provided to the USD(C), who is the
senior official in charge of management controls for DoD.

We performed a review of the performance information presented in the
Overview of the DoD Agency-Wide financial statements for FY 2000. We
obtained an understanding of the internal controls related to assertions about the
existence and completeness of assets and determined whether they were placed
into operation. We also reviewed the preparation of the performance
information relating to the summarization and reporting of performance measure
information in conformance with OMB Bulletin No. 97-01, as amended.

Review of Compliance With Laws and Regulations. DoD management is
responsible for complying with laws and regulations applicable to the agency.
As part of obtaining reasonable assurance about whether the DoD Agency-Wide
financial statements for FY 2000 were free of material misstatement, we
performed tests of its compliance with certain provisions of laws and
regulations. A reportable noncompliance could have a direct and material effect
on the determination of financial statement amounts and certain other laws and
regulations specified in the OMB Bulletin No. 01-02, “Audit Requirements for
Federal Financial Statements,” dated October 16, 2000. Our review also
included the requirements referred to in the FFMIA. See Appendix B for a list
of laws and regulations reviewed.

DoD-Wide Corporate Level Government Performance and Results Act
Coverage. In response to the Government Performance and Results Act, the
Secretary of Defense annually establishes DoD-wide corporate level goals,
subordinate performance goals, and performance measures. This report pertains
to achievement of the following goal, subordinate performance goal, and
performance measures.

       • FY 2001 DoD Corporate Level Goal 2: Prepare now for an
         uncertain future by pursuing a focused modernization effort that
         maintains U.S. qualitative superiority in key warfighting capabilities.
         Transform the force by exploiting the Revolution in Military Affairs,
         and reengineer the Department to achieve a 21st century
         infrastructure. (01-DoD-2)

       • FY 2001 Subordinate Performance Goal 2.5: Improve DoD
         financial and information management. (01-DoD-2.5)




                                    33
           • FY 2001 Performance Measure 2.5.1: Reduce the number of
             noncompliant accounting and finance systems. (01-DoD-2.5.1)

           • FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
             on financial statements. (01-DoD-2.5.2)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals.

           • Financial Management Functional Area. Objective: Consolidate
             finance and accounting operations. Goal: Consolidate and
             standardize financial systems. (FM-2.1)

           • Financial Management Functional Area. Objective: Consolidate
             finance and accounting operations. Goal: Reduce and improve
             accounting systems. (FM-2.2)

           • Financial Management Functional Area. Objective: Eliminate
             problem disbursements.

              • Goal: Reduce problem disbursements by over 60 percent.
                (FM-3.1)

              • Goal: Improve the processing and control over cross-
                disbursements. (FM-3.2)

              • Goal: Improve timeliness and accuracy of obligations. (FM-3.3)

           • Financial Management Functional Area. Objective: Reengineer
             DoD business practices.

              • Goal: Standardize, reduce, clarify, and reissue financial
                management policies. (FM-4.1)

              • Goal: Improve data standardization of finance and accounting data
                items. (FM-4.4)

           • Financial Management Functional Area. Objective: Strengthen
             internal controls. Goal: Improve compliance with Federal
             Managers’ Financial Integrity Act. (FM-5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.

Methodology
    Auditing Standards. We conducted this financial statement audit in accordance
    with generally accepted Government auditing standards issued by the
    Comptroller General of the United States, as implemented by the IG, DoD, and


                                       34
    the OMB Bulletin No. 01-02, “Audit Requirements for Federal Financial
    Statements.” Those standards require that we plan and perform the audit to
    obtain reasonable assurance about whether the principal statements present
    fairly, in all material respects, and in conformity with Federal accounting
    standards, the assets, liabilities, and net position; net costs; changes in net
    position; budgetary resources; reconciliation of net costs to budgetary
    obligations; and if applicable, custodial activity. To assess the materiality of
    matters affecting the fair presentation of the financial statements and related
    internal control weaknesses, we relied on the guidelines suggested by the
    General Accounting Office and on our professional judgment.

    Audit Assistance. The Military Department audit agencies assisted us by
    auditing various reporting entities and accounts. Except for deficiencies unique
    to the consolidation process, the information in this report is a summary of the
    most significant issues reported by the IG, DoD, the Military Department audit
    agencies, and the General Accounting Office.

    Computer-Processed Data. We could not rely on the computer-processed data
    used to prepare the DoD Agency-Wide financial statements for FY 2000. DoD
    financial management systems were unreliable; therefore, the financial
    statements were unauditable. DoD has candidly addressed deficiencies in its
    financial management systems in the DoD Components’ Annual Statements of
    Assurance, the FMIP, and the DoD management representation letter for
    FY 2000. Unreliable computer-processed data were used in preparing the
    financial statements and this report because they were the only financial data
    available. We continue to review the adequacy of existing and proposed
    financial management systems.

    Statistical Sampling Methods. We relied on information in audit reports and
    summaries and in management reports. We did not use statistical sampling
    methods.

    Audit Period and Locations. We performed this financial statement audit from
    October 2000 through February 2001 at various DoD activities, including DFAS
    and the Military Departments.

    Representation Letters. We received the management representation letter
    from the USD(C) on February 15, 2001, and the legal representation letter from
    the General Counsel, DoD, on February 6, 2001. Exhibit 1 is the management
    representation letter and Exhibit 2 is the legal representation letter.

    Contacts During the Audit. We visited or contacted individuals and
    organizations in DoD. Further details are available on request.

Prior Coverage
    The GAO and the IG, DoD, have conducted multiple reviews related to
    financial statement issues. GAO reports can be accessed on the Internet at
    http://www.gao.gov. IG, DoD, reports can be accessed on the Internet at
    http://www.dodig.osd.mil.




                                         35
Appendix B. Laws and Regulations Reviewed
           Antideficiency Act (sections 1341(a)(1)(A) and (C), and section 1517(a),
           title 31, United States Code)

           Pay and Allowance System for Civilian Requirements (section 5332 and 5343,
           title 5, United States Code; and section 206, title 29, United States Code)

           Public Law 106-65, “National Defense Authorization Act for FY 2000,”
           October 5, 1999

           Public Law 104-208, “Federal Financial Management Improvement Act of
           1996,” September 30, 1996

           Public Law 104-134, “Debt Collection Improvement Act of 1996,”
           April 26, 1996 (section 3711(g)(1)(A), title 31, United States Code)

           Public Law 103-356, “Federal Financial Management Act of 1994,”
           October 13, 1994 (this Act may also be cited as the “Government Management
           Reform Act of 1994”)

           Public Law 103-62, “Government Performance and Results Act of 1993,”
           August 3, 1993

           Public Law 101-576, “Chief Financial Officers Act of 1990,” November 15,
           1990 (section 501, title 31, United States Code)

           Public Law 101-508, “Federal Credit Reform Act of 1990,” November 5, 1990,
           (section 661(b) and (e), title 2, United States Code)*

           Public Law 97-365, “Debt Collection Act of 1982,” October 25, 1982,
           (sections 3701(a)(1), 3716, 3717, title 31, United States Code)

           Public Law 97-255, “Federal Managers’ Financial Integrity Act of 1982,”
           September 8, 1982 (section 3512, title 31, United States Code)

           Public Law 97-177, “Prompt Payment Act,” May 21, 1982, (sections 3901(a),
           (b), and (f), and 3904, title 31, United States Code)

           Public Law 89-508, “Federal Claims Collection Act of 1966,” July 19, 1966,
           (section 3711(a)(1), title 31, United States Code)

           OMB Bulletin No. 01-02, “Audit Requirements for Federal Financial
           Statements,” October 16, 2000

           OMB Bulletin No. 97-01, “Form and Content of Agency Financial Statements,”
           October 16, 1996, as amended


*
    The provisions of the Federal Credit Reform Act of 1990 do not materially impact the Department of
    Defense.



                                                    36
OMB Memorandum “Revised Implementation Guidance for the Federal
Financial Management Improvement Act,” January 4, 2001

DoD Directive 5010.38, “Management Control (MC) Program,”
August 26, 1996

DoD Regulation 7000.14-R, “DoD Financial Management Regulation,”
various dates




                               37
Appendix C. Status of Implementation Strategies

                                                                        Status
                                                                         Implementation       Not
          Implementation Strategy            Rebaselined     Pending       in Progress      Developed
    General PP&E1: Existence and
       Completeness (Excludes
                                                   X
       Property in the Hands of
       Contractors)
    General PP&E1: Valuation of Real
                                                   X
       Property and Personal Property
    General PP&E1: Government
       Property in the Possession of               X
       Contractors
    PP&E1: Deferred Maintenance                                 X
    Inventory: Existence,
       Completeness, and Valuation in                           X
       Possession of DoD
    Operating Materials and Supplies:
       Existence, Completeness, and                             X
       Valuation in Possession of DoD2
    Inventory and Operating Materials
       and Supplies: In the Possession                          X
       of Contractors
    Liability Issues: Environmental
                                                                                 X
       Restoration Liabilities
    Liability Issues: Hazardous Waste
       (Environmental Disposal)                                                  X
       Liabilities
    Liability Issues:
       (Nonenvironmental) Disposal                                               X
       Liabilities
    Liability Issues: Postretirement
                                                                                 X
       Health Care Liabilities
    Fund Balance With Treasury                                                   X
    Intragovernmental Eliminations                              X
    Department-level Accounting
                                                                                                   X
       Entries
      Total                                        3             5               5                 1

1
    Property, Plant, and Equipment
2
    The Implementation Strategy for Ammunition and Munitions was incorporated into the Operating
    Materials and Supplies Implementation Strategy.




                                                   38
Appendix D. Noncompliant Critical Finance,
            Accounting, and Feeder Systems
          System Name                  System Acronym   System Function     Owner
 Acquisition and Due-In
                                              ADIS        Acquisition      Air Force
  System3
 Air Force Equipment                                       Property
                                             AFEMS                         Air Force
  Management System3                                      Management
 Aircraft Engine Management                                Property
                                              AEMS                           Navy
  System3                                                 Management
 Aircraft Inventory Readiness                              Property
                                             AIRRS                           Navy
  and Reporting System3                                   Management
 Airlift Services Industrial
                                                             Cost
  Funds Integrated Computer                 ASIFICS                        Air Force
                                                          Management
  System3
                                                              Cost
 AMARC Business System3                           ABS                      Air Force
                                                          Management
 Asset Tracking Logistics and                              Inventory
                                         ATLASS II+                          Navy
  Supply System Phase II+3                                Management
 Automated Civil Engineering                                Property
                                            ACES-RP                        Air Force
  System-Real Property3                                   Management
                                                                          TRICARE
 College and University
                                              CUFS       General Funds    Management
  Financial System2
                                                                           Activity
 Commodity Command                                      Defense Working
                                              CCSS                          DFAS
  Support System2                                        Capital Funds
 Comprehensive Engine                                       Property
                                              CEMS                         Air Force
  Management System3                                      Management
 Conventional Ammunition
                                                           Property
  Integrated Management                      CAIMS                           Navy
                                                          Management
  System3
 Craft and Boat Support                                    Property
                                              CBSS                           Navy
  System3                                                 Management
 Defense Cash Accountability                                 Cash
                                              DCAS                          DFAS
  System2                                                Accountability
 Defense Transportation                                  Transportation
                                              DTRS                          DFAS
   Payment System1                                          Payment


Note: See footnotes at the end of the appendix.




                                                   39
          System Name                  System Acronym    System Function    Owner
 Facility Inventory Planning                                 Property
                                                  FIPS                       Navy
   System3                                                 Management
 Financial Management
                                              FMIS        General Funds      Navy
   Information System2
                                                                           National
 General Accounting and
                                              GAC         General Funds    Security
   Reporting System2
                                                                           Agency
 Industrial Logistics Support
                                                            Inventory
   Management Information                    ILSMIS                          Navy
                                                           Management
   System3
 Job Order Cost Accounting                                    Cost
                                            JOCAS II                       Air Force
   System II3                                              Management
 Military Sealift Command
                                                         Defense Working
   Financial Management                     MSCFMS                           Navy
                                                          Capital Funds
   System2
                                                            Property
 Naval Vessel Register3                       NVR                            Navy
                                                           Management
 On-Line Vehicle Interactive                                  Cost
                                            OLVIMS                         Air Force
    Management System3                                     Management
 Reliability and
                                                            Property
    Maintainability                          REMIS                         Air Force
                                                           Management
    Information System3
 Reserve Integrated
                                                              Cost
    Management System                     RIMS (FM)                          Navy
                                                           Management
    (Financial Management)3
 Shipyards Management                                    Defense Working     Navy
                                             SYMIS
    Information System2                                   Capital Funds
 Standard Accounting and
                                             STARS        General Funds     DFAS
    Reporting System2
 Standard Base Supply                                       Inventory      Air Force
                                              SBSS
    System3                                                Management
 Standard Industrial Fund                                Defense Working
                                                  SIFS                      DFAS
    System2                                               Capital Funds
 Standard Material Accounting                            Defense Working
                                              SMAS                          DFAS
    System2                                               Capital Funds
 Stock Control System-
                                                            Inventory
     Recoverable Assembly                 SCS-RAMP                         Air Force
                                                           Management
     Management Process3


Note: See footnotes at the end of the appendix.




                                                    40
            System Name                   System Acronym   System Function   Owner
    Support Equipment
                                                             Property
       Resources Management                      SERMIS                      Navy
                                                            Management
       Information System3
    Uniform Automated Data
                                                             Inventory
       Processing System-                   UADPS-ICP                        Navy
                                                            Management
       Inventory Control Point3
    Uniform Automated Data
                                                             Inventory
       Processing-System Stock               UADPS-SP                        Navy
                                                            Management
       Point3


1
  This system is a critical finance system.
2
  This system is a critical accounting system.
3
  This system is a critical feeder system.




                                                    41
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Comptroller (Program/Budget)
  Deputy Chief Financial Officer

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency

Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office




                                           42
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         43
Under Secretary of Defense (Comptroller)
Comments




                  45
Exhibit 1. Management Representation
           Letter
Exhibit 2. Legal Representation Letter
            *




* We removed all references in this letter from our audit report on “Internal Controls and Compliance
  with Laws and Regulations for the DoD Agency wide Financial statements for FY 2000.”
Exhibit 3. Auditor Opinion
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

F. Jay Lane
Salvatore D. Guli
Richard B. Bird
Cindi M. Miller
N. Dale Gray
Cheri D. Givens
Suellen R. Brittingham
Andrew D. Gum
Sarah A. Buelo
